APPENDIX

PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-6655
VERNON NORMAN EARLE,
Plaintiff - Appellant,
v.
SHREVES, C/O; J. RIVERA, Unit Manager for M-Unit at FCI Hazelton; R.
DOMAS, Unit Manager for L-Unit; D. WASHINGTON, Operating Lieutenant; MR.
GONOUNDY, [SIA] Special Investigative Agent; MR. BRECKON, Assistant
Warden of Operations; RACHEL THOMPSON, Administrative assistant/Remedy
Coordinator; JENNIFER SAAD, Warden of FCI Hazelton; K. KELLY, Captain of
FCI Hazelton; A. GYORKO, Case manager for Unit N-2 and for Plaintiff Directly;
C. T. PULICE, Case Manager Coordinator; J. F. CARAWAY, Mid-Atlantic
Regional Director; IAN CONNORS, National Inmates Appeals Administrator; MR.
SQUIRES, [SIS] special investigative Service Lieutenant,
Defendants - Appellees.
Appeal from the United States District Court for the Northern District of West Virginia, at
Elkins. John Preston Bailey, District Judge. (2:17-cv-00004-JPB-RWT)
Argued: December 9, 2020

Decided: March 10, 2021

Before KEENAN and RICHARDSON, Circuit Judges, and TRAXLER, Senior Circuit
Judge.
Affirmed by published opinion. Senior Judge Traxler wrote the opinion, in which Judge
Keenan and Judge Richardson joined.

1a

ARGUED:
Olivia O’Hea, GEORGETOWN UNIVERSITY LAW CENTER,
Washington, D.C., for Appellant. Erin K. Reisenweber, OFFICE OF THE UNITED
STATES ATTORNEY, Martinsburg, West Virginia, for Appellee. ON BRIEF: Erica
Hashimoto, Director, Marcella Coburn, Supervising Attorney, Cynthia Anderson, Student
Counsel, Matthew Angelo, Student Counsel, Connor Suozzo, Student Counsel, Appellate
Litigation Program, GEORGETOWN UNIVERSITY LAW CENTER, Washington, D.C.,
for Appellant. William J. Powell, United States Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Wheeling, West Virginia, for Appellees.

2a

TRAXLER, Senior Circuit Judge:
In this case, we are called on to determine whether the implied constitutional cause
of action recognized by the Supreme Court in Bivens v. Six Unknown Named Agents of
Federal Bureau of Narcotics, 403 U.S. 388 (1971), may be extended to include a federal
inmate’s claim that prison officials violated his First Amendment rights by retaliating
against him for filing grievances. As we will explain, such an extension of Bivens is not
permissible after Ziglar v. Abbasi, 137 S. Ct. 1843 (2017), and Tun-Cos v. Perrotte, 922
F.3d 514 (4th Cir. 2019), cert. denied, 140 S. Ct. 2565 (2020), and we therefore affirm the
district court’s judgment dismissing the action.
I.
Plaintiff Vernon Earle is serving a life sentence after being convicted in the District
of Columbia of various charges including murder. In 2015, when the incidents involved
in this case occurred, Earle was serving his sentence at a federal correctional institution in
West Virginia.
According to the allegations of Earle’s complaint, Earle’s unit was locked down
after an inmate punched Defendant Michael Shreves, a correctional officer. During the
lockdown, Earle was denied hot meals and other privileges available to other inmates. He
subsequently filed two grievances complaining about Shreves’ conduct that precipitated
the lockdown. Instead of handling the grievances in the usual manner, officers turned them
over to Shreves, who directed another officer to place Earle and another complaining
inmate in administrative detention in the Special Housing Unit (SHU). Earle remained in

3a

the SHU for 30 days; despite multiple requests, he was never told why he had been placed
in segregation.
Earle alleged that after he was released from the SHU, the warden told him he was
placed in the SHU because of the grievances he filed. The warden stripped Earle of his
prison job and transferred him to a different housing unit. Earle’s new case manager
unfairly increased Earle’s custody classification points because Earle “love[d] to file.” J.A.
21.
After exhausting prison remedies, Earle filed the complaint giving rise to this
appeal. Earle alleged that Shreve and numerous other named defendants conspired to
violate his First Amendment rights by retaliating against him for seeking resolution of his
informal grievances. He also contended his placement in the SHU violated the Fifth and
Eighth Amendments. The defendants moved to dismiss, or, in the alternative, for summary
judgment. They argued that the First Amendment claim should be dismissed as an
impermissible extension of Bivens after Ziglar. On the merits of the constitutional claims,
the defendants contended they were entitled to summary judgment because Earle could not
prove any constitutional violation and that they were entitled to qualified immunity. The
defendants submitted affidavits from Shreve and others asserting that Earle was placed in
the SHU pending an investigation into his grievances, which Shreve believed contained
threating language.
The district court granted summary judgment in favor of the defendants. Without
addressing whether a Bivens remedy was available, the court held that the First Amendment
claim failed “because there is no First Amendment right to file grievances.” J.A. 238. As

4a

to the remaining claims, the district court held that Earle’s evidence was insufficient to
show a constitutional violation and that the defendants were therefore entitled to qualified
immunity. This appeal followed.
On appeal, Earle does not challenge the district court’s rejection of his claims under
the Fifth and Eighth Amendments. Accordingly, the only claim at issue in this appeal is
Earle’s Bivens claim alleging a conspiracy to violate his First Amendment rights.
II.
A.
A person whose constitutional rights have been violated by a state official may bring
an action seeking monetary damages against the official under 42 U.S.C. § 1983. “But §
1983 does not provide a cause of action against federal officials, and there is no analogous
statute imposing damages liability on federal officials.” Tun-Cos, 922 F.3d at 520.
In Bivens, the Supreme Court recognized for the first time an implied cause of action
for damages against federal officers alleged to have violated a citizen’s rights under the
Constitution and permitted the plaintiff to seek compensatory damages from federal agents
alleged to have violated the Fourth Amendment. See 403 U.S. at 396-97. In the years since
Bivens was decided, however, the Supreme Court’s approach to implied damage remedies
has changed dramatically, to the point that “expanding the Bivens remedy is now a
disfavored judicial activity.” Ziglar, 137 S. Ct. at 1857 (internal quotation marks omitted).
Whether an implied damage remedy is available for a constitutional claim is
logically “antecedent” to any question about the merits of the claim. Hernandez v. Mesa,
137 S. Ct. 2003, 2006 (2017) (internal quotation marks omitted). The implied-remedy

5a

question does not go to the jurisdiction of the court, and it is sometimes appropriate for a
court to assume the existence of a Bivens remedy and dispose of the claim by resolving the
constitutional question. Id. at 2007. In this case, because this area of the law is in flux and
guidance would be beneficial, we believe it is appropriate to determine whether a Bivens
remedy is available for Earle’s First Amendment claim. See Bistrian v. Levi, 912 F.3d 79,
89 (3d Cir. 2018) (“[T]hreshold questions are called that for a reason, and it will often be
best to tackle head on whether Bivens provides a remedy, when that is unsettled.”).
B.
As the Supreme Court explained in Ziglar, “it is a significant step under separationof-powers principles for a court to determine that it has the authority, under the judicial
power, to create and enforce a cause of action for damages against federal officials in order
to remedy a constitutional violation.” Ziglar, 137 S. Ct. at 1856. Accordingly, in the years
since Bivens was decided, the Court has proceeded cautiously. The Supreme Court has
refused to extend Bivens numerous times, see id. at 1857, but has extended the Bivens
remedy beyond the Fourth Amendment to only two new contexts. The Court has permitted
a federal prisoner to pursue a Bivens claim raising an Eighth Amendment claim of
deliberate indifference to serious medical needs, see Carlson v. Green, 446 U.S. 14, 18-19
(1980), and it has also permitted an employee of a member of Congress to bring a Bivens

6a

action alleging gender discrimination under the Due Process Clause of the Fifth
Amendment, see Davis v. Passman, 442 U.S. 228, 248-49 (1979). 1
Consistent with the Court’s view that further expansion of the Bivens remedy was
disfavored, the analytical framework established by the Ziglar Court places significant
obstacles in the path to recognition of an implied cause of action. “First, courts must
inquire whether a given case presents a ‘new Bivens context.’ If the context is not new . .
. then a Bivens remedy continues to be available.” Tun-Cos, 922 F.3d at 522–23 (quoting
Ziglar, 137 S. Ct. at 1859).

“But if the context is new, then courts must, before

extending Bivens liability, evaluate whether there are ‘special factors counselling
hesitation in the absence of affirmative action by Congress.’ If any such ‘special factors’
do exist, a Bivens action is not available.” Id. at 523 (quoting Ziglar, 137 S. Ct at 1857).
1.
We first consider whether this case involves a “new context” for Bivens purposes.
A case presents a new Bivens context “[i]f the case is different in a meaningful way from
previous Bivens cases decided by [the Supreme] Court.” Ziglar, 137 S. Ct. at 1859. Rather
than give a precise definition, the Court gave examples to illustrate the kinds of
“differences that are meaningful enough,” id., to present a new context:

In Farmer v. Brennan, 511 U.S. 825 (1994), the Supreme Court considered
an inmate’s Bivens claim alleging that federal prison officials violated the Eighth
Amendment through deliberate indifference to the inmate’s need for protection from other
inmates. The Court acknowledged that the action was brought under Bivens, see id. at 830,
839, but did not question the propriety of the Bivens remedy in that case. The Ziglar Court
did not include Farmer in its list of accepted contexts for Bivens claims. Our resolution of
this appeal, however, does not depend on Farmer’s precise status after Ziglar.
1

7a

A case might differ in a meaningful way because of the rank of the officers
involved; the constitutional right at issue; the generality or specificity of the
official action; the extent of judicial guidance as to how an officer should
respond to the problem or emergency to be confronted; the statutory or other
legal mandate under which the officer was operating; the risk of disruptive
intrusion by the Judiciary into the functioning of other branches; or the
presence of potential special factors that previous Bivens cases did not
consider.
Id. at 1860.
Although federal prison officials like the defendants in this case are already subject
to Bivens claims asserting Eighth Amendment violations, the claim at issue here arises
under the First Amendment and is governed by a very different body of case law. The
Supreme Court has never recognized a First Amendment based Bivens remedy in any
context. See Reichle v. Howards, 566 U.S. 658, 663 n.4 (2012) (“We have never held
that Bivens extends to First Amendment claims.”); Ashcroft v. Iqbal, 556 U.S. 662, 675
(2009) (assuming without deciding that Bivens extends to a First Amendment free exercise
claim); Bush v. Lucas, 462 U.S. 367, 368 (1983) (refusing to extend Bivens to a First
Amendment speech claim brought by federal employee). We therefore have little difficulty
concluding that, as Earle himself concedes, this case presents a new context for Bivens
purposes. See Tun-Cos, 922 F.3d at 525 (concluding that plaintiffs’ Fifth Amendment
claims presented a new context in part because the claims “have no analogue in the
Supreme Court’s prior Bivens cases”); Bistrian, 912 F.3d at 95–96 (finding federal
inmate’s First Amendment retaliation claim to present a new Bivens context because the
claim was “novel” “from the vantage of boundaries set by the Supreme Court”).
2.

8a

Because this case presents a new Bivens context, we must determine whether there
are “special factors counselling hesitation” in implying a cause of action. Ziglar, 137 S.
Ct. at 1857 (internal quotation marks omitted). “If any such special factors do exist, a
Bivens action is not available.” Tun-Cos, 922 F.3d at 523 (internal quotation marks
omitted).
The focus of the special-factors inquiry is “whether the Judiciary is well suited,
absent congressional action or instruction, to consider and weigh the costs and benefits of
allowing a damages action to proceed. Thus, to be a ‘special factor counselling hesitation,’
a factor must cause a court to hesitate before answering that question in the affirmative.”
Ziglar, 137 S. Ct 1858.
It is not necessarily a judicial function to establish whole categories
of cases in which federal officers must defend against personal liability
claims in the complex sphere of litigation, with all of its burdens on some
and benefits to others. It is true that, if equitable remedies prove insufficient,
a damages remedy might be necessary to redress past harm and deter future
violations. Yet the decision to recognize a damages remedy requires an
assessment of its impact on governmental operations systemwide. Those
matters include the burdens on Government employees who are sued
personally, as well as the projected costs and consequences to the
Government itself when the tort and monetary liability mechanisms of the
legal system are used to bring about the proper formulation and
implementation of public policies. These and other considerations may make
it less probable that Congress would want the Judiciary to entertain a
damages suit in a given case.
. . . . [I[f there are sound reasons to think Congress might doubt the
efficacy or necessity of a damages remedy as part of the system for enforcing
the law and correcting a wrong, the courts must refrain from creating the
remedy in order to respect the role of Congress in determining the nature and
extent of federal-court jurisdiction under Article III.
Id.

9a

In this case, we believe there are several special factors that counsel hesitation.
First, even without a Bivens cause of action, Earle is not completely without remedy. Like
all federal inmates, Earle has “full access to remedial mechanisms established by the BOP,
including suits in federal court for injunctive relief and grievances filed through the BOP’s
Administrative Remedy Program.” Corr. Servs. Corp. v. Malesko, 534 U.S. 61, 74 (2001);
see 28 C.F.R. § 542.10(a) (“The purpose of the Administrative Remedy Program is to
“allow an inmate to seek formal review of an issue relating to any aspect of his/her own
confinement.”). While these alternate remedies do not permit an award of money damages,
they nonetheless offer the possibility of meaningful relief and therefore remain relevant to
our analysis.. See Schweiker v. Chilicky, 487 U.S. 412, 425 (1988) (declining to imply a
Bivens remedy for due process claims springing from the denial of Social Security benefits
despite unavailability of compensatory damages under alternate remedial scheme); TunCos, 922 F.3d at 526-27 (“The plaintiffs are correct that the protections provided by the
INA do not include a money damages remedy and often do not redress constitutional
violations that occur apart from removal proceedings. But this misses the point, for the
relevant question is not what remedy the court should provide for a wrong that would
otherwise go unredressed but instead whether an elaborate remedial system should be
augmented by the creation of a new judicial remedy.” (internal quotation marks and
alteration omitted)).
Moreover, Earle’s claim that he was placed in the SHU in retaliation for his
grievance raises serious questions relating “to the reasoning, manner, and extent of prison
discipline.” Bistrian, 912 F.3d at 94. “Whether to place an inmate in more restrictive

10a

detention involves real-time and often difficult judgment calls about disciplining inmates,
maintaining order, and promoting prison officials’ safety and security.” Id. at 96. As the
Third Circuit explained, prison officials must have discretion “to determine detention
policies, to assess the endless variety of circumstances in which those policies may be
implicated, and to decide when administrative detention is deserved and for how long.” Id.
at 94. Given the ease with which an inmate could manufacture a claim of retaliatory
detention, 2 allowing a Bivens action for such claims could lead to an intolerable level of
judicial intrusion into an issue best left to correctional experts. See id. (“The Bureau of
Prisons, not the judiciary, has the expertise, planning, and the commitment of resources
necessary for the difficult task of running a correctional facility.”) (internal quotation marks
omitted); see also Wetzel v. Edwards, 635 F.2d 283, 288 (4th Cir. 1980) (“It is a rule
grounded in necessity and common sense, as well as authority, that the maintenance of
discipline in a prison is an executive function with which the judicial branch ordinarily will
not interfere.”) (citation and internal quotation marks omitted).
In sum, the recognition of a Bivens remedy in this case would work a significant
intrusion into an area of prison management that demands quick response and flexibility,
and it could expose prison officials to an influx of manufactured claims. And while the
absence of a Bivens remedy forecloses any claims for monetary compensation, there are
nonetheless other avenues available to inmates that offer the possibility of meaningful

An inmate who engaged in misconduct could simply file a grievance related
to his own action and then rely on that grievance to challenge any discipline subsequently
imposed on him as retaliatory.
2

11a

remedial relief for claims of retaliatory discipline. Under these circumstances, we believe
that Congress, not the Judiciary, is in the best position to “weigh the costs and benefits of
allowing a damages action to proceed.” Ziglar, 137 S. Ct. at 1858.
Accordingly, because we find special factors that counsel hesitation before
expanding the Bivens remedy, we must reject Earle’s attempt to extend the Bivens remedy
to his claim that the defendants violated his First Amendment rights by retaliating against
him for filing grievances. See Tun-Cos, 922 F.3d at 523 (“If any such special factors
[counseling hesitation] do exist, a Bivens action is not available.”) (internal quotation
marks omitted); see also Mack v. Yost, 968 F.3d 311, 324-25 (3d Cir. 2020) (applying
Ziglar to reject inmate’s Bivens claim that prison officials stripped him of his prison job in
retaliation or filing grievances); Callahan v. Federal Bureau of Prisons, 965 F.3d 520, 525
(6th Cir. 2020) (declining “to recognize a new Bivens action for free speech claims in
prisons”); Bistrian, 912 F.3d at 96 (concluding that the special-factors analysis precludes
extending Bivens to inmate’s claim that prison officials placed him in administrative
detention to retaliate for grievances filed by the inmate).
III.
For the foregoing reasons, we decline to expand the Bivens remedy to include the
First Amendment retaliation claim asserted by Earle. Because Earle has no cause of action,

12a

we hereby affirm the district court’s judgment dismissing Earle’s First Amendment
retaliation claim. 3
AFFIRMED

3

See, e.g., McMahan v. Int’l Ass’n of Bridge, Structural & Ornamental Iron
Workers, 964 F.2d 1462, 1467 (4th Cir. 1992) (“We of course have the power to affirm a
judgment for any reason appearing on the record, notwithstanding that the reason was not
addressed below.”).

13a

Case 2:17-cv-00004-JPB-RWT Document 70 Filed 04/23/19 Page 1 of 10 PageID #: 403

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
ELKINS
VERNON NORMAN EARLE,
Plaintiff,
v.

Civil Action No. 2:17-CV-4
(BAILEY)

MICHAEL SHREVES, et al.,
Defendants.
ORDER GRANTING DEFENDANTS’ MOTION FOR SUMMARY JUDGMENT
Currently pending before this Court is the defendants’ Motion to Dismiss, Or in the
Alternative, Motion for Summary Judgment [Doc. 59], filed August 30, 2018. Having been
fully briefed, this matter is now ripe for decision. For the reasons set forth below, this Court
will award summary judgment for the defendants.
BACKGROUND
Plaintiff Vernon Earle is a prisoner in the Bureau of Prison’s (“BOP”) custody serving
a life sentence. From December 2, 2014, until July 25, 2017, plaintiff was incarcerated at
the Federal Correctional Institution in Bruceton Mills, West Virginia (“FCI Hazelton”). On
July 25, 2017, he was then transferred to the United States Penitentiary in Bruceton Mills
(“USP Hazelton”). Plaintiff was in either of these two facilities for the relevant times for the
instant action. Currently, he is in the penitentiary in Pollock, Louisiana (“USP Pollock”).
This case starts in November 2015, when correctional counselor Michael Shreves
was punched by an unidentified inmate in the M-Unit at FCI Hazelton. Because of this
1

14a

Case 2:17-cv-00004-JPB-RWT Document 70 Filed 04/23/19 Page 2 of 10 PageID #: 404

incident, the Warden locked the housing unit down. While his unit was on lockdown,
plaintiff sent two requests for informal resolution about the lockdown [Doc. 59-3 at ¶ 8].
Plaintiff complained that he was being punished by being on lockdown even though he had
not been charged for anything and that he was suffering consequences such as missing
visits from his family and not being able to go to work within the prison [Doc. 1-3].
Defendant Shreves stated that he does not remember the exact language of the requests
but that plaintiff accused Shreves of deserving the punch to the face and that Shreves was
responsible for the unit being locked down [Doc. 59-3 at ¶ 8]. Shreves felt the tone of the
requests for resolution were threatening, so he referred the matter to the Special
Investigative Agent (“SIA”) and Special Investigative Services (“SIS”) [Id. at ¶ 9].1 On
December 7, 2015, plaintiff was placed in the Special Housing Unit (“SHU”) pending an SIS
investigation into the “threats” of plaintiff’s requests [Doc. 59-4 at 8].
Plaintiff then filed Administrative Remedies requesting the reason for his
confinement into the SHU. The Warden denied the request. Plaintiff’s appeals were
unsuccessful, and he had exhausted his administrative remedies before filing in this Court.
In his Complaint, plaintiff alleges Bivens claims against numerous prison officials for
conspiring to retaliate against him for filing grievances and that his First, Fifth, and
Eighth Amendment rights were violated.
STANDARD OF REVIEW
Federal Rule of Civil Procedure 56 provides that summary judgment is appropriate
“if the pleadings, depositions, answers to interrogatories, and admissions on file, together
1

The two requests for informal resolution that are purportedly threatening are not
included in the record by either the defendants or the plaintiff.
2

15a

Case 2:17-cv-00004-JPB-RWT Document 70 Filed 04/23/19 Page 3 of 10 PageID #: 405

with the affidavits, if any, show that there is no genuine issue as to any material fact and
that the moving party is entitled to a judgment as a matter of law.” The party seeking
summary judgment bears the initial burden of showing the absence of any genuine issues
of material fact. See Celotex Corp. v. Catrett, 477 U.S. 317, 322–23 (1986). “The burden
then shifts to the nonmoving party to come forward with facts sufficient to create a triable
issue of fact.” Temkin v. Frederick County Comm’rs, 945 F.2d 716, 718 (4th Cir. 1991),
cert. denied, 502 U.S. 1095 (1992) (citing Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
247–48 (1986)).
However, as the United States Supreme Court noted in Anderson, “Rule 56(e) itself
provides that a party opposing a properly supported motion for summary judgment may not
rest upon the mere allegations or denials of his pleading, but must set forth specific facts
showing that there is a genuine issue for trial.” Id. at 256. “The inquiry performed is the
threshold inquiry of determining whether there is the need for a trial—whether, in other
words, there are any genuine factual issues that properly can be resolved only by a finder
of fact because they may reasonably be resolved in favor of either party.” Id. at 250; see
also Charbonnages de France v. Smith, 597 F.2d 406, 414 (4th Cir. 1979) (Summary
judgment “should be granted only in those cases where it is perfectly clear that no issue
of fact is involved and inquiry into the facts is not desirable to clarify the application of the
law.” (citing Stevens v. Howard D. Johnson Co., 181 F.2d 390, 394 (4th Cir. 1950))).
In reviewing the supported underlying facts, all inferences must be viewed in the light
most favorable to the party opposing the motion. See Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 587 (1986). Additionally, the party opposing summary

3

16a

Case 2:17-cv-00004-JPB-RWT Document 70 Filed 04/23/19 Page 4 of 10 PageID #: 406

judgment “must do more than simply show that there is some metaphysical doubt as to the
material facts.” Id. at 586. That is, once the movant has met its burden to show absence
of material fact, the party opposing summary judgment must then come forward with
affidavits or other evidence demonstrating there is indeed a genuine issue for trial. Fed.
R. Civ. P. 56(c); Celotex Corp., 477 U.S. at 323–25; Anderson, 477 U.S. at 248. “If the
evidence is merely colorable, or is not significantly probative, summary judgment may be
granted.” Anderson, 477 U.S. at 249 (citations omitted).
DISCUSSION
Even though Congress passed 42 U.S.C. § 1983, which allows money damages if
a state official violates constitutional rights, there never has been an analogous statute for
federal officials. In light of this, the Supreme Court, in Bivens v. Six Unknown Fed.
Narcotics Agents, 403 U.S. 388 (1971), ruled that even with no statutory authorization
there could still be an implied cause of action for damages for people injured by federal
officials violating constitutional rights. Bivens suits aim to deter unconstitutional actions
by targeting the personal assets of individual federal officials in order. See Carlson v.
Green, 446 U.S. 14, 21 (1980). Liability in a Bivens case is “personal, based upon each
defendant’s own constitutional violations.”

Trulock v. Freeh, 275 F.3d 391, 402

(4th Cir. 2001). Vicarious liability or respondeat superior is not available for a Bivens
claim, “each Government official, his or her title notwithstanding, is only liable for his or her
own misconduct.” Ashcroft v. Iqbal, 556 U.S. 662, 677 (2009). In this case, plaintiff fails
to show the requisite personal involvement by any of the defendants and plaintiff’s
allegations even taken in the light most favorable to the plaintiff do not support a cognizable

4

17a

Case 2:17-cv-00004-JPB-RWT Document 70 Filed 04/23/19 Page 5 of 10 PageID #: 407

constitutional violation.
In retaliation claims, “plaintiffs must allege either that the retaliatory act was taken
in response to the exercise of a constitutionally protected right or that the act itself violated
such a right.” Adams v. Rice, 40 F.3d 72, 75 (4th Cir. 1994). Retaliation claims must be
supported by “more than naked allegations of reprisal.” Id. at 74. Further, this Court has
established more stringent standards for retaliation in prisoner cases.
In the prison context, “a prisoner must allege more than his personal belief
that he is the victim of retaliation; that is, mere conclusory allegations of
retaliation are not sufficient to state a claim for retaliation.” Lerman v.
Federal Bureau of Prisons, 2003 WL 22121092, at *7 (N.D. Tex. Sept. 12,
2003) (citing Johnson v. Rodriguez, 110 F.3d 299, 310 (5th Cir. 1997);
Woods v. Edwards, 51 F.3d 577, 580 (5th Cir. 1995)). Rather, in this case,
the plaintiff must “be prepared to establish that but for the retaliatory motive
the complained of incident—such as the filing of disciplinary reports
...—would not have occurred,” and he “must produce direct evidence of
motivation, or the more probable scenario, ‘allege a chronology of events
from which retaliation may plausibly be inferred.’” Woods v. Smith, 60 F.3d
1161, 1166 (5th Cir. 1995) (quoting Cain v. Lane, 857 F.2d 1139, 1143 n.6
(5th Cir. 1989)).
Caver v. Lane, 2015 WL 9077032, at *3 (N.D. W.Va. Dec. 16, 2015) (Stamp, J.); see also
Huang v. Bd. of Governors of Univ. of N. Carolina, 902 F.2d 1134, 1140 (4th Cir. 1990)
(requiring that claimants asserting First Amendment retaliation claims under § 1983 actions

5

18a

Case 2:17-cv-00004-JPB-RWT Document 70 Filed 04/23/19 Page 6 of 10 PageID #: 408

must show there would have been no retaliation “but for” the claimant’s protected
expressions); Berry v. McBride, 2004 WL 3266037, at *3 (S.D. W.Va. Nov. 22, 2004)
(Faber, C.J.) (citing Huang and holding that plaintiff needed to “demonstrate[] that but for
his protected action, he would not have been subjected to the allegedly retaliatory actions”)
aff'd, 122 Fed.Appx 654 (4th Cir. 2005).
In his Complaint, plaintiff alleges that all fourteen defendants conspired or assisted
the conspiracy to retaliate against him for filing grievances [Doc. 1]. First, there are eight
defendants here that are only alleged to be supervisors and their roles cannot sustain a
Bivens claim. Plaintiff does not provide any specific facts that show that defendants
Special Investigative Agent Brad Gorondy, Associate Warden Michael Breckon, Case
Management Coordinator Christopher Pulice, Executive Assistant Rachel Thompson,
FCI Hazelton Warden Jennifer Saad, Complex Captain Kevin Kelly, BOP Regional Director
J.F. Caraway, National Inmate Appeals Administrator Ian Connors, and SIS Lieutenant
Squires had any role in the alleged retaliation other than being in a supervisory role at the
Hazelton complex. Being aware that plaintiff was in the SHU or being in charge of
departments in the prison are not sufficient to establish a level of personal involvement
required to maintain a Bivens claim against them.
None of the other defendants had the requisite involvement either. Plaintiff alleges
that he gave defendant Rivera, Unit Manager, his grievances and that Rivera took the
grievances to defendant Rhonda Domas, who was a Unit Manager training Rivera. Domas
then instructed Rivera to wait and give the grievances to Shreves. Plaintiff’s allegations of
defendant Shreves involvement is that when he returned to work, after a week off so his

6

19a

Case 2:17-cv-00004-JPB-RWT Document 70 Filed 04/23/19 Page 7 of 10 PageID #: 409

injury could heal from being punched in the face, he was given the plaintiff’s grievances and
then Shreves gave them to Lt. Derrick Washington. Plaintiff alleges that Defendant
Washington is a friend of Shreves and that Shreves told Washington to put plaintiff in the
SHU. Plaintiff also claims that Washington placed plaintiff in the SHU “as punishment for
writing” grievances [Doc. 1 at 3]. There is no evidence that links the filing of grievances to
plaintiff’s confinement in the SHU other than plaintiff’s own unsupported conclusory
statement that he was retaliated against. In his allegations against defendant Angela
Gyorko, plaintiff claims she tried to “hike-up” his custody points so that plaintiff would be
sent back to USP Hazelton instead of staying at FCI Hazelton. Plaintiff further claims that
Gyorko stated, “Because you love to file I am going to send you bace [sic] to the pen so
you can file all you want.” [Doc.1 at 14]. The plaintiff provides nothing that could support
that this statement actually occurred or that this line of retaliatory was ever the basis for any
action. Finally, there are also statements by plaintiff that claim different defendants did
“admit and confirm” that the reason for the placement in the SHU was for retaliatory
reasons, but as with the other claims, there was no evidence provided of this.
Plaintiff’s Bivens claims all fall short in the same way: no specific allegations, just
conclusory statements. There are no facts for the alleged conspiracy to retaliate against
plaintiff for filing grievances and no facts to support an understanding or agreement
between the defendants. Plaintiff simply entered speculation and bare assertions into the
record. To prove his retaliation claim, plaintiff must show that “but for” his filing grievances,
he would not have been placed in the SHU. Plaintiff cannot do that because there are
statements and evidence in the record that state the reason for him being in the SHU was
pending an investigation to see if he had threatened a correctional officer. Combining this
7

20a

Case 2:17-cv-00004-JPB-RWT Document 70 Filed 04/23/19 Page 8 of 10 PageID #: 410

fact with the broad discretion that the BOP has in administering prison life, the defendants
are entitled to summary judgment.
In addition to the lack of personal involvement, there is no viable constitutional
violation alleged. Plaintiff claims that his First, Fifth, and Eighth Amendment rights were
violated.
Plaintiff’s First Amendment claim fails because there is no First Amendment right to
file grievances. See Adams v. Rice, 40 F.3d 72, 75 (4th Cir. 1994) (“As other circuits have
recognized, there is no constitutional right to participate in grievance proceedings.”); Brown
v. Ratledge, 2017 WL 4404248, at *8 (W.D. Va. Sept. 29, 2017), aff'd, 709 Fed.App'x 215
(4th Cir. 2018) (“In any event, his claim fails because an inmate has no constitutional right
to participate in grievance proceedings.”).
Addressing the alleged Fifth Amendment violation, precedent is clear prisoners have
no constitutional right to be in general population or housed in specific prisons.2 See, e.g.,
Moody v. Daggett, 429 U.S. 78, 79 n. 9 (1976); Beveratti v. Smith, 120 F.3d 500, 503–04
(4th Cir. 1997). In order for inmate housing to implicate a Due Process right, it must
“impose[] atypical and significant hardship on the inmate in relation to the ordinary incidents
of prison life,” Sandin v. Conner, 515 U.S. 472, 484 (1995), and being housed in the SHU,
by itself, is not an atypical hardship. See Beveratti, 120 F.3d at 503 (holding that
administrative segregation for six months with vermin, human waste, flooded toilet,
2

In his Response, plaintiff also briefly complains that he was moved to USP Pollock,
which he claims violates the BOP’s own policy because USP Pollock is over 500 miles
away from his hometown [Doc. 67 at 3]. However, the BOP has considerable discretion
to determine where a federal prisoner is incarcerated. See 18 U.S.C. 3621(b) (listing
“within 500 driving miles of [prisoner’s] residence” as a factor to be considered, but not a
requirement).
8

21a

Case 2:17-cv-00004-JPB-RWT Document 70 Filed 04/23/19 Page 9 of 10 PageID #: 411

unbearable heat, cold food, dirty clothing, no outside recreation, and no education did not
constitute atypical as to impose a significant hardship). Additionally, any complaint of a
change in security or custody classification cannot establish a constitutional violation
because “prison officials can change an inmate's classification for almost any reason or no
reason at all.” Brown v. Ratledge, 2017 WL 4404248, at *7 (W.D. Va. Sept. 29, 2017),
aff'd, 709 F. App’x 215 (4th Cir. 2018).
Finally, to show an Eighth Amendment violation, the plaintiff must demonstrate (1) a
serious deprivation of a basic human need; and (2) deliberate indifference to prison
conditions on the part of prison officials. Strickler v. Waters, 989 F.2d 1375, 1379 (4th Cir.
1993).

Additionally, “there must be evidence of a ‘serious medical and emotional

deterioration attributable to’ the challenged condition.” Id. at 1380 (quoting Lopez v.
Robinson, 914 F.2d 486, 490 (4th Cir.1990)). The plaintiff here does not complain that he
was denied adequate, food, shelter, and medical care, nor that he was unprotected from
harm. Rather, the plaintiff's sole complaints regarding the conditions in the SHU are that
he was denied the same conveniences as the general population such as “hot meals,
vacations, [and] recreation.” [Doc. 1 at 13]. This does not constitute a serious deprivation
of a basic human need and therefore cannot sustain an Eighth Amendment claim.
Additionally, the defendants are entitled to qualified immunity from this suit because
there was no constitutional right violated. As mentioned above, the plaintiff cannot show
a viable violation of the First, Fifth, or Eighth Amendment. The plaintiff has only provided
conclusory statements that his grievances caused his placement in the SHU. There has

9

22a

Case 2:17-cv-00004-JPB-RWT Document 70 Filed 04/23/19 Page 10 of 10 PageID #: 412

been no specific facts that can show any link between the grievances and his placement
in the SHU. Therefore, as matter of law, summary judgment is granted for the defendants.
CONCLUSION
For the reasons stated above, this Court hereby GRANTS defendants’ Motion for
Summary Judgment [Doc. 59].

Further, this case is hereby DISMISSED WITH

PREJUDICE. The Clerk is DIRECTED to enter judgment in favor of the defendants and
to STRIKE this action from the active docket of this Court.
It is so ORDERED.
The Clerk is directed to transmit copies of this Order to all counsel of record herein.
DATED: April 23, 2019.

10

23a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 1 of 16 PageID #: 1

24a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 2 of 16 PageID #: 2

25a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 3 of 16 PageID #: 3

26a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 4 of 16 PageID #: 4

27a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 5 of 16 PageID #: 5

28a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 6 of 16 PageID #: 6

29a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 7 of 16 PageID #: 7

30a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 8 of 16 PageID #: 8

31a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 9 of 16 PageID #: 9

32a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 10 of 16 PageID #: 10

33a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 11 of 16 PageID #: 11

34a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 12 of 16 PageID #: 12

35a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 13 of 16 PageID #: 13

36a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 14 of 16 PageID #: 14

37a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 15 of 16 PageID #: 15

38a

Case 2:17-cv-00004-JPB-RWT Document 1 Filed 01/17/17 Page 16 of 16 PageID #: 16

39a

Case 2:17-cv-00004-JPB-RWT Document 1-1 Filed 01/17/17 Page 1 of 3 PageID #: 17

40a

Case 2:17-cv-00004-JPB-RWT Document 1-1 Filed 01/17/17 Page 2 of 3 PageID #: 18

41a

Case 2:17-cv-00004-JPB-RWT Document 1-1 Filed 01/17/17 Page 3 of 3 PageID #: 19

42a

Case 2:17-cv-00004-JPB-RWT Document 59 Filed 08/30/18 Page 1 of 2 PageID #: 221

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
VERNON NORMAN EARLE,
Plaintiff,
v.

C/O SHREVES, et al.,
Defendants.

)
)
)
)
)
)
)
)

Civil Action No. 2:17-cv-4

DEFENDANTS’ MOTION TO DISMISS, OR IN THE ALTERNATIVE,
MOTION FOR SUMMARY JUDGMENT
Defendants Shreves, Rivera, Domas, Washington, Gorondy, Breckon, Thompson, Saad,
Kelly, Gyorko, Pulice, Squires, Caraway, and Connors, hereby respond to the Court’s Order to
Answer issued February 23, 2018. [ECF No. 20]. Defendants further move the Court to dismiss
Plaintiff’s complaint, or, in the alternative, to enter summary judgment in Defendants’ favor. The
reasons underlying Defendants’ motion are more fully set forth in the memorandum filed herewith.

Respectfully submitted,
WILLIAM J. POWELL
United States Attorney
By:

s/ Erin K. Reisenweber
Erin K. Reisenweber
Assistant U.S. Attorney
217 West King Street, Suite 400
Martinsburg, West Virginia 25401
Telephone: (304) 262-0590
FAX: (304) 262-0591
Erin.Reisenweber@usdoj.gov

43a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 1 of 25 PageID #: 223

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
VERNON NORMAN EARLE,
Plaintiff,
v.

SHREVES, C/O, et al.,
Defendants.

)
)
)
)
)
)
)
)

Civil Action No. 2:17-cv-4

DEFENDANTS’ MEMORANDUM IN SUPPORT OF MOTION TO DISMISS, OR IN
THE ALTERNATIVE, MOTION FOR SUMMARY JUDGMENT
Defendants Shreves, Rivera, Domas, Washington, Gorondy, Breckon, Thompson, Saad,
Kelly, Gyorko, Pulice, Squires, Caraway, and Connors, by and through counsel, William J.
Powell, United States Attorney for the Northern District of West Virginia, and Erin K.
Reisenweber, Assistant United States Attorney for said district, now submit this memorandum in
support of their motion to dismiss, or in the alternative, motion for summary judgment.
STATEMENT OF THE CASE
Plaintiff, Vernon Norman Earle, Federal Register Number 09814-004, brings suit against
Michael Shreves, Jose Rivera, Rhonda Domas, Derrick Washington, Brad Gorondy, Michael
Breckon, Rachel Thompson, Jennifer Saad, Kevin Kelly, Angela Gyorko, Christopher Pulice, J.
F. Caraway, and Ian Connors (“Defendants”) in their individual capacities pursuant to Bivens v.
Six Unknown Named Agents of Fed. Bureau of Narcotics, 403 U.S. 388 (1971). Earle alleges that
the defendants violated his First, Fifth, and Eighth Amendment rights. See Earle Complaint, ECF
No. 1, at pp. 11-12, 15. Specifically, he alleges that defendants retaliated against him for filing
administrative remedies, which resulted in unjustified placement in the Special Housing Unit
(“SHU”). Id. Earle contends that he lost personal property and his work assignment as a result of
1

44a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 2 of 25 PageID #: 224

his placement in the SHU. Id. In relief Earle seeks forty-thousand dollars ($40,000) for each day
he spent in the SHU from each defendant, as well as injunctive relief. Id. at 15.
As detailed herein, Earle has not adequately pled, nor can he establish, any viable Bivens
claims. Accordingly, the defendants respectfully request that this Court dismiss Earle’s complaint
or, alternatively, grant summary judgment in favor of the defendants.
STATEMENT OF FACTS
On November 15, 1983, the District of Columbia Superior Court sentenced Earle to three
(3) years of incarceration for violation of the Bail Reform Act. On the same date, Earle was
sentenced to a fifteen (15) year term of incarceration for assault with intent to kill while armed.
See Exhibit 1, Declaration of Howard Williams, at ¶ 4. Subsequently, on April 14, 1987, Earle
was sentenced in the District of Columbia Superior Court to life in prison for murder while
armed, assault with a dangerous weapon, carrying a pistol without a license, and assault with
intent to kill while armed. Id. All three sentences were imposed consecutively to one another,
resulting in a sentence of life in prison, with a minimum term of fifty-nine (59) years. Id. Earle
was committed to BOP custody on July 21, 1989. Id.
From December 2, 2014, until July 25, 2017, Earle was incarcerated at the Federal
Correctional Institution in Bruceton Mills, West Virginia (“FCI Hazelton”). Id. at ¶ 5. On July
25, 2017, Earle was transferred to the United States Penitentiary in Bruceton Mills, West Virginia
(“USP Hazelton”). Id. He remained there until May 1, 2018. Id. Earle is presently incarcerated
at the United States Penitentiary in Pollock, Louisiana (“USP Pollock”). Id.
In or about late November of 2015, an unidentified inmate in M-Unit at FCI Hazelton
punched Counselor Michael Shreves in the mouth because the inmate did not wish to accept a
cellmate. See Exhibit 2, Declaration of Michael Shreves, at ¶ 5-6. As a result, the Warden

2

45a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 3 of 25 PageID #: 225

determined that the housing unit should be locked down. Id. at ¶ 6. During a lockdown, inmates
are prevented from moving around the institution or housing unit, cannot receive visitors,
recreation and work duties are cancelled, and food and meal services are disrupted.1 Id.
In or about early December, Earle gave defendant Shreves two (2) requests for informal
resolution. Id. at ¶ 8. Counselor Shreves reviewed the requesting, and believing them to contain
a threatening substance and tone, he referred the matter to the Special Investigative Agent (“SIA”)
and Special Investigative Services (“SIS”) Department for investigation and review. Id. at ¶ 8, 9.
On December 7, 2015, staff placed Earle in the Special Housing Unit (“SHU”) pending
the SIS investigation into the substance of his remedy requests. See Exhibit 3, Declaration of
Derrick Washington, at ¶ 10, Attachment A. Special Housing Units are “housing units in Bureau
institutions where inmates are securely separated from the general inmate population . . . . Special
housing units help ensure the safety, security, and orderly operation of correctional facilities, and
protect the public, by providing alternative housing assignments for inmates removed from the
general population.” Id. at ¶ 5; 28 C.F.R. § 541.21; Program Statement 5270.11, Special Housing
Units, p. 2.2
On January 6, 2016, Earle was released from the SHU, and he returned to the general
population at FCI Hazelton. See Exhibit 4, Declaration of Angela Gyorko, at ¶ 7, Attachment A.
Upon Earle’s release from SHU, he was placed in a different housing unit and assigned a different
Case Manager. Id. at ¶ 8.

1

It is within the Warden’s discretion to determine at what point security concerns rise to such a
level that an institution or housing unit needs to be locked down and to further determine the
duration of the lockdown. Id. at n. 1.
2
The full text of Program Statement 5270.11, Special Housing Units, is available online at
https://www.bop.gov/policy/progstat/5270.11.pdf
3

46a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 4 of 25 PageID #: 226

On February 1, 2016, Earle filed Administrative Remedy No. 850257-F1 requesting an
investigation into his placement in the SHU. The Warden denied Earle’s remedy request on
February 25, 2016. See Exhibit 1, Williams Decl., at Attachment C. On March 10, 2016, Earle
appealed the decision of the Warden to the Regional Director in Administrative Remedy No.
850257-R1, again requesting investigation into his placement in SHU. The Regional Director
denied the request on March 30, 2016. Id. Finally, on April 18, 2016, Earle appealed the
Regional Director’s decision to the Central Office in Administrative Remedy No. 850257-A1.
This remedy was closed on May 17, 2016. Id.
At the time Earle filed his lawsuit, on January 1, 2017, he had exhausted the
administrative remedy process while incarcerated at FCI Hazelton. Id. at ¶ 5, 9.
Earle remained at FCI Hazelton until July 25, 2017, at which point he was transferred to
the United States Penitentiary in Bruceton Mills, West Virginia (“USP Hazelton”). Id. at ¶ 5. On
May 24, 2018, Earle was transferred to the United States Penitentiary in Pollock, Louisiana
(“USP Pollock”) where he is presently incarcerated. Id. at ¶ 5, Attachment B.
LEGAL STANDARDS
I. Motion to Dismiss
Dismissal of a claim is appropriate when the court accepts as true the facts in the
complaint, and, in viewing them in the light most favorable to the plaintiff, it “appears to a
certainty that the plaintiff would be entitled to no relief under any state of facts which could be
proved in support of his claim.” Mylan Lab., Inc. v. Matkari, 7 F.3d 1130, 1135 & n.4 (4th Cir.
1993).

Dismissal is also appropriate when the face of a complaint reveals that there is a

meritorious affirmative defense. Richmond, F. & P. R. R. v. Forst, 4 F.3d 244, 250 (4th Cir.
1993).

4

47a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 5 of 25 PageID #: 227

A motion to dismiss for failure to state a claim upon which relief can be granted tests the
sufficiency of a complaint. Fed. R. Civ. P. 12(b)(6); Edwards v. City of Goldsboro, 178 F.3d 231,
243 (4th Cir. 1999). The Federal Rules of Civil Procedure “require only ‘a short and plain
statement of the claim showing that the pleader is entitled to relief,’ in order to ‘give the
defendant fair notice of what the … claim is and the grounds upon which it rests.’” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555 (2007) (quoting Conley v. Gibson, 355 U.S. 41, 47 (1957)).
A complaint must be more than “a formulaic recitation of the elements of a cause of action” or
“naked assertion[s] devoid of further factual enhancement.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (citations omitted). Therefore, in order for a complaint to survive dismissal for failure to
state a claim, the plaintiff must “allege facts sufficient to state all the elements of [his or her]
claim.” Bass v. E.I. DuPont de Nemours & Co., 324 F.3d 761, 765 (4th Cir. 2003). Thus, a wellpleaded complaint must offer more than “a sheer possibility that a defendant has acted
unlawfully” in order to meet the plausibility standard and survive dismissal for failure to state a
claim. Id.
II. Motion for Summary Judgment
Federal Rule of Civil Procedure 56 instructs courts to “grant summary judgment if the
movant shows that there is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). In applying the standard for summary
judgment, the court must review all the evidence “in the light most favorable to the nonmoving
party.” Celotex Corp. v. Catrett, 477 U.S. 317, 322-23 (1986). The court must avoid weight the
evidence or determining the truth and limit its inquiry solely to a determination of whether
genuine issues of triable fact exits. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).

5

48a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 6 of 25 PageID #: 228

In Celotex, the Supreme Court held that the moving party bears the initial burden of
informing the Court of the basis for the motion and of establishing the nonexistence of genuine
issues of fact. Celotex, 477 U.S. at 323. Once “the moving party has carried its burden under
Rule 56, the opponent must do more than simply show that there is some metaphysical doubt as to
material facts.” Matsushita Electric Industrial Co. v. Zenith Radio Corp., 475 U.S. 574, 586
(1986). The nonmoving party must present specific facts showing the existence of a genuine
issue for trial. Id. This means that the “party opposing a properly supported motion for summary
judgment may not rest upon mere allegations or denials of [the] pleading, but...must set forth
specific facts showing that there is a genuine issue for trial.” Anderson, 477 U.S. at 256. The
“mere existence of a scintilla of evidence” favoring the nonmoving party will not prevent the
entry of summary judgment. Id. at 248. To withstand such a motion, the nonmoving party must
offer evidence from which a “fair-minded jury could return a verdict for the [party].” Id. “If the
evidence is merely colorable, or is not significantly probative, summary judgment may be
granted.” Felty v. Graves-Humphreys Co., 818 F.2d 1126, 1128 (4th Cir. 1987). Such evidence
must consist of facts which are material, meaning that they create fair doubt rather than encourage
mere speculation. Anderson, 477 U.S. at 248. Summary judgment is proper only “[w]here the
record taken as a whole could not lead a rational trier of fact to find for the nonmoving party.”
Matsushita, 475 U.S. at 587.
ARGUMENT
I. Earle Fails to Demonstrate that Any Defendant Had the Requisite Personal or
Supervisory Involvement to Support a Viable Bivens Claim
Bivens liability is meant to “deter individual federal officers from committing
constitutional violations.” Corr. Servs. Corp. v. Malesko, 534 U.S. 61, 70 (2001). A federal
inmate’s exclusive remedy to address a purported constitutional tort violation is a civil rights
6

49a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 7 of 25 PageID #: 229

action against the offending individual. Id. at 62. Bivens liability is purely personal, based
specifically and exclusively upon an individual’s own conduct. Trulock v. Freeh, 275 F.3d 391,
402 (4th Cir. 2001) (citations omitted). A Bivens lawsuit seeks recovery from a government
employee’s personal financial assets. Carlson v. Green, 446 U.S. 14, 21 (1980); Hall v. Clinton,
235 F.3d 202, 204 (4th Cir. 2000) (citations omitted). Accordingly, to present a viable Bivens
claim, an inmate must show (1) that a particular defendant was personally involved in the alleged
misconduct and, (2) that the defendant’s conduct specifically contributed to the inmate’s alleged
harm. Dunn v. Stewart, No. 5:12-cv-55, 2012 WL 6963923, at *4 (N.D.W. Va. Dec. 27, 2012)
(citations omitted).
Furthermore, where a Bivens defendant is sued in a supervisory capacity, he cannot be
held vicariously liable for misconduct by subordinate employees. Ashcroft v. Iqbal, 556 U.S.
662, 676 (2009). Instead, a supervisor may only be directly liable where he deliberately ignores
or tacitly approves of subordinate misconduct that violates an inmate’s protected constitutional
rights. Miltier v. Beorn, 896 F.2d 848, 854 (4th Cir.1990) (reversed on other grounds). Vague,
factually unsupported allegations that a supervisor was aware of subordinate misconduct are not
sufficient to state a valid Bivens claim. See Patel v. Moron, 897 F. Supp. 2d 389, 401 (E.D.N.C.
2012).
The United States Court of Appeals for the Fourth Circuit requires more particularized
“heightened pleading” to present a viable constitutional claim against a government employee.
Dunbar Corp. v. Lindsey, 905 F.2d 754, 764 (4th Cir.1990) (noting that a heightened pleading
standard is “highly appropriate” in actions against government officials). Specifically, a
constitutional claim against a federal official must clearly set forth facts that will show the
existence of a clearly established constitutional right and what the individual defendant

7

50a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 8 of 25 PageID #: 230

personally did to violate it. Awalt v. Whalen, 809 F.Supp. 414, 416 (E.D.Va. 1992) (citations
omitted).
Earle fails to present the type of particularized personal or supervisory involvement
necessary to support a cognizable Bivens claim against any of the individual defendants. Instead
he generically alleges that the individual defendants conspired to violate his constitutional rights.
Such sweeping and universal allegations cannot support the particularized and specific
allegations necessary to establish a cognizable Bivens claim against fourteen (14) separate
individual defendants. Trulock, 275 F.3d at 402.
Furthermore, Earle names Special Investigative Agent Brad Gorondy; Associate Warden
Michael Breckon; Case Management Coordinator Christopher Pulice; Executive Assistant
Rachel Thompson, FCI Hazelton Warden Jennifer Saad; Complex Captain Kevin Kelly; BOP
Regional Director J.F. Caraway; and National Inmate Appeals Administrator Ian Connors all as
defendants in this case. Earle does not present any specific facts sufficient to hold any of these
defendants accountable as supervisors. See Earle Complaint, ECF No. 1. Instead, Earle generally
alleges that these defendants each maintained a supervisory role in the administration of FCI
Hazelton, the Mid-Atlantic Region, and the Bureau, and therefore, should be held liable. His
vague, factually unsupported allegations that these individuals were aware of alleged misconduct
and failed to intervene do not establish the level of direct personal involvement required to
establish liability under Bivens. See Patel, 897 F. Supp.2d at 401. Therefore, Earle’s claims
must be dismissed.
II.

Earle’s First Amendment Retaliation Claim Sets Forth a New Bivens Context and Is
Barred Under Abbasi
The Supreme Court has recognized only three types of Bivens claims, including the claim

in Bivens itself: (1) a Fourth Amendment claim against federal agents who violated the
8

51a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 9 of 25 PageID #: 231

prohibition against unreasonable searches and seizures when they handcuffed a man in his own
home without a warrant, Bivens, 403 U.S. 388; (2) a Fifth Amendment claim against a
Congressman for firing his female administrative assistant, which was an alleged act of gender
discrimination, Davis v. Passman, 442 U.S. 228 (1979); and (3) an Eighth Amendment claim
brought by an inmate’s estate against prison officials for failure to provide adequate medical care
for his asthma, purportedly resulting in his death. Carlson v. Green, 446 U.S. 14 (1980) See
also Ziglar v. Abbasi, 137 S. Ct. 1843, 1854-55, 1860 (2017).
In June 2017, the Supreme Court decided Ziglar v. Abbasi, 137 S. Ct. 1843 (2017). In
refusing once again to extend Bivens to a new category of constitutional claims, the Supreme
Court emphasized that expanding the Bivens remedy is now a “disfavored” judicial activity. Id.
at 1857 (citing Ashcroft v. Iqbal, 556 U.S. 662, 675 (2009); Malesko, 534 U.S. at 68). After
Abbasi, determining whether a Bivens remedy is available amounts to a three-step analysis. First,
the court must determine whether the claim arises in a new Bivens context. Abbasi, 137 S. Ct. at
1864. If it does, the next question is whether there is “an alternative, existing process for
protecting the [relevant] interest [which] amounts to a convincing reason for the Judicial Branch
to refrain from providing a new and freestanding remedy in damages.” Wilkie v. Robbins, 551
U.S. 537, 550 (2007); accord Abbasi, 137 S. Ct. at 1858. Finally, the court must consider
whether there are any other “special factors counseling hesitation before authorizing a new kind
of federal litigation.” Wilkie, 551 U.S. at 550 (citation omitted); accord Abbasi, 137 S. Ct. at
1857. Applying this inquiry to the case at hand, the Court should decline to extend Bivens to
include First Amendment free speech claims by federal prisoners against prison officials in their
individual capacities.
In determining whether a Bivens remedy is available to Earle’s First Amendment claim,

9

52a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 10 of 25 PageID #: 232

the court must decide whether the claim arises in a new Bivens context—in other words, whether
“the case is different in a meaningful way from previous Bivens cases decided by [the Supreme
Court].” Abbasi, 137 S. Ct. at 1859, 1864. “[D]ifferences that are meaningful enough to make a
given context a new one” may include “the rank of the officers involved; the constitutional right
at issue; the generality or specificity of the official action; the extent of judicial guidance as to
how an officer should respond to the problem or emergency to be confronted; the statutory or
other legal mandate under which the officer was operating; the risk of disruptive intrusion by the
Judiciary into the functioning of other branches; or the presence of potential special factors that
previous Bivens cases did not consider.” Id. at 1860.
Courts have historically refused to create new Bivens contexts. The Abbasi court noted
that in the last three decades the Supreme Court has repeatedly declined to create new implied
damages remedies under Bivens in a number of contexts, including (1) a First Amendment claim
against a federal employer, see Bush v. Lucas, 462 U.S. 367 (1983); (2) race discrimination
claims brought by military personnel against their superior military officers, Chappell v.
Wallace, 462 U.S. 296, 297, 304-05 (1983); (3) claims against military officers for injuries
arising from activity incident to military service, United States v. Stanley, 483 U.S. 669, 671-72,
683-84 (1987); (4) a procedural due process suit against Social Security officials for allegedly
improper denial of disability benefits, Schweiker v. Chilicky, 487 U.S. 412, 414 (1988); (5) a
procedural due process suit against a federal agency for wrongful termination, FDIC v. Meyer,
510 U.S. 471, 473-74 (1994); (6) Eighth Amendment claims against the operator of a private
prison, Malesko, 534 U.S. at 63; (7) a due process suit against officials from the Bureau of Land
Management, Wilkie, 551 U.S. at 547-48, 562; (8) an Eighth Amendment claim for failure to
provide adequate medical care against prison guards at a privately operated federal prison,

10

53a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 11 of 25 PageID #: 233

Minneci v. Pollard, 565 U.S. 118, 120 (2012); and (9) most recently in Abbasi itself, substantive
due process, equal protection, and Fourth Amendment claims arising from pretrial conditions of
confinement, Abbasi, 137 S. Ct. at 1857.
The Fourth Circuit in Lebron v. Rumsfeld stated that “[i]n the forty years since Bivens,
the Supreme Court has monitored the limits of judicial competence to design implied remedies,
frequently reminding the courts ‘that Congress is in a better position to decide whether or not the
public interest would be served by creating’ Bivens actions in new situations.” 670 F.3d 540, 548
(4th Cir.) cert. denied, 132 S. Ct. 2751 (2012) (quoting Bush, 462 U.S. at 390). Moreover,
determining whether a case presents a new Bivens context is not based on whether a particular
circuit has recognized a Bivens remedy in a specific context, but whether the Supreme Court
itself has recognized a Bivens claim in that context. See Abbasi, 137 S. Ct. at 1859 (“If the case is
different in a meaningful way from previous Bivens cases decided by this Court, then the context
is new.” (emphasis added)).
In the instant case, Earle attempts to bring a First Amendment retaliation claim under a
Bivens theory that he was placed in administrative detention solely for filing administrative
grievances. The Supreme Court itself, however, has never recognized a First Amendment claim
of any sort. See Wood v. Moss, 134 S. Ct. 2056, 2066 (2014) (acknowledging that the Supreme
Court has never recognized an implied damages remedy under the First Amendment); Reichle v.
Howard, 132 S. Ct. 2088, 2093 n.4 (2012) (same). Indeed, the Supreme Court has affirmatively
declined to extend Bivens to a claim sounding in the First Amendment. Bush, 462 U.S.at 390.
See also Vanderklok v. United States, 868 F.3d 189 (3d Cir. 2017) (Supreme Court has not
recognized that Bivens affords a remedy against airport security screeners who allegedly retaliate
against a traveler who exercises First Amendment rights).

11

54a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 12 of 25 PageID #: 234

Moreover, Courts have uniformly held that First Amendment retaliation claims are
indeed a new Bivens context. See, e.g., Bradley v. Granger, No. 217CV00041JMSDLP, 2018
WL 3022653, at *3–4 (S.D. Ind. June 18, 2018) (finding that an inmate’s suit alleging retaliation
for filing administrative grievances “is unlike the Fourth Amendment unreasonable seizure claim
at issue in Bivens, the gender discrimination claim in Davis, or the deliberate indifference claim
in Carlson”); Rager v. Augustine, No. 5:15CV35/MW/EMT, 2017 WL 6627416, at *17 (N.D.
Fla. Nov. 8, 2017), report and recommendation adopted, No. 5:15CV35-MW/EMT, 2017 WL
6627784 (N.D. Fla. Dec. 28, 2017) (concluding that the case presented a new Bivens context
where the right at issue was an inmate’s First Amendment right to file prison grievances
concerning the conditions of confinement); Randolph v. FCI Allenwood (Med), No. 1:17-CV786, 2018 WL 2276246, at *11 (M.D. Pa. Apr. 24, 2018), report and recommendation adopted,
No. 1:17-CV-786, 2018 WL 2263733 (M.D. Pa. May 17, 2018); Rodriguez v. Hamel, No.
CV157980NLHKMW, 2018 WL 2254557, at *4–5 (D.N.J. May 17, 2018).
As to the second step under Abbasi, there is less consensus regarding the availability of
alternative remedies. In Bradley, the court found several alternative remedies for addressing the
inmate plaintiff’s claims of retaliation:
[The inmate has] the Bureau of Prisons’ administrative remedy process. He
may bring retaliation conduct to the attention of administrators and seek nonmonetary remedies. For any injuries he might have sustained, he is able to
bring a claim under the Federal Tort Claims Act. Any retaliation that extends
his confinement might be actionable in habeas corpus. And any retaliation that
results in a violation of a previously recognized Bivens claim is another
alternate remedy [a plaintiff] may pursue.
2018 WL 3022653, at *3–4. In Rager, the court found that the plaintiff’s alternative remedy was
to file “a civil rights complaint seeking injunctive relief enjoining the unconstitutional conduct.”
2017 WL 6627416, at *17. In Rodriguez, however, the court found that there was no alternative
12

55a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 13 of 25 PageID #: 235

remedy available to the plaintiff. 2018 WL 2276246, at *11. Nevertheless, the court refused to
extend the Bivens remedy based on the special factors analysis. Id.
Special factors counseling against extending the Bivens remedy at issue here include
“legislative action suggesting that Congress does not want a damages remedy” and the difficulty
of prison administration. See, e.g., Bradley, 2018 WL 3022653, at *3–4 (emphasizing that the
Prison Litigation Reform Act (“PLRA”) “placed a series of controls on prisoner suits . . .
designed to prevent sportive filings in federal court” and that “Congress has been active in the
area of prisoners’ rights, and its actions—not creating new rights—do not support the creation of
a new Bivens claim”); Rager, 2017 WL 6627416, at *17 (noting that “the physical injury
requirement for damages suits for ‘mental or emotional injury suffered while in custody,’ under
§ 1997e(e), is particularly significant in this case, because First Amendment retaliation claims
seldom, if ever, involve physical injury”); Randolph, 2018 WL 2276246, at *11 (“urgent
problems of prison administration require expertise and training that are ‘within the province of
the legislative and executive branches of government’”) (internal citation omitted); Rodriguez,
2018 WL 2254557, at *4–5 (“Running a prison is an inordinately difficult undertaking that
requires expertise, planning, and the commitment of resources, all of which are peculiarly within
the province of the legislative and executive branches of government”) (citing Turner v. Safley,
482 U.S. 78, 84-85 (1987)).
Therefore, Earle’s claims purporting retaliation for the exercise of his First Amendment
rights cannot stand under the facts of this case in light of Abbasi.
III. Earle Has Not Adequately Pled, Nor Can He Establish, Any Cognizable Bivens Claims.
Earle is a pro se litigant. Therefore, his pleadings are generally liberally construed and
held to a less stringent standard than pleadings drafted by an attorney. See Hughes v. Rowe, 449
13

56a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 14 of 25 PageID #: 236

U.S. 5, 9 (1980) (per curiam); Estelle v. Gamble, 429 U.S. 97 (1976). However, even under that
deferential standard, this Court can “pierce the veil of a complaint’s factual allegations and
dismiss those claims whose factual contentions are clearly baseless.” Neitzke v. Williams, 490
U.S. 319, 327 (1989). Moreover, Earle is not entitled to have his arguments constructed for him
or to have this Court consider questions that Earle has not squarely presented. Beaudett v. City of
Hampton, 775 F.2d 1274, 1278 (4th Cir. 1985), cert. denied, 475 U.S. 1088 (1986). Specifically,
Earle is not entitled to have this Court advocate or divine legal theories on his behalf. Gordon v.
Leeke, 574 F.2d 1147, 1151 (4th Cir. 1978). Even under the deferential standard allowed to pro
se litigants, Earle cannot establish any viable Bivens claims.
A. Earle Fails to Establish His First Amendment Claim of Retaliation
Earle claims that his “Constitutional First Amendment Right was violated for filing
Administrative Remedies. and [sic] he was place [sic] in the special Housing Unit for so filing.”
Essentially, Earle generally claims that all individual defendants conspired to place him in SHU
in retaliation for his filing an administrative remedy regarding an independent incident in which
his Unit was locked down. See Earle Complaint, ECF No. 1 at pp. 2-4, 11-13. Notwithstanding
Abbasi, Earle still has not established that any individual defendant violated his constitutional
rights, let alone that a conspiracy existed between the defendants in order to do so.
1. Earle’s broad allegations do not, and cannot prove the individual defendants
conspired to retaliate against him.
In civil rights and conspiracy actions, “conclusory, vague and general allegations may
justify the complaint’s dismissal.” Fulwood v. Fed. Bureau of Prisons, 568 Fed. App’x 753, 756
(11th Cir. 2014) (citing Kearson v. Southern Bell Tel. & Tel. Co., 763 F.2d 405, 407 (11th Cir.
1985)). See also, Regassa v. Brininger, No. 4:CV-14-1122, 2015 WL 5178077, at *5 (M.D. Pa.
Sept. 4, 2015) (“In order to set forth a cognizable conspiracy claim, a plaintiff cannot rely on
14

57a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 15 of 25 PageID #: 237

broad or conclusory allegations.”); Fullman v. Graddick, 739 F.2d 553, 557 (11th Cir. 1984) (“It
is not enough to simply aver that a conspiracy existed.”); D.R. by L.R. v. Middle Bucks Area
Vocational Technical Sch., 972 F.2d 1364, 1377 (3d Cir.1992), cert. denied, 506 U.S. 1079
(1993); Rose v. Bartle, 871 F.2d 331, 366 (3d Cir.1989); Durre v. Dempsey, 869 F.2d 543, 545
(10th Cir.1989).

Rather, the “linchpin for conspiracy is agreement, which presupposes

communication.” Fulwood, 568 Fed. App’x at 756 (citing Bailey v. Bd. of Cnty. Comm’rs of
Alachua Cnty., 956 F.2d 1112, 1122 (11th Cir.1992)). See also, D.R. by L.R., 972 F.2d at 1377
(the essence of a conspiracy is an agreement or concerted action between individuals).
In order to adequately plead the existence of a conspiracy, the plaintiff must specifically
allege “the period of the conspiracy, the object of the conspiracy, and the certain actions of the
alleged conspirators taken to achieve that purpose.” Regassa, 2015 WL 5178077, at *5 (citing
Shearin v. E.F. Hutton Group, Inc., 885 F.2d 1162, 1166 (3d Cir. 1989)). A plaintiff must also
allege with particularity, facts “which show that the purported conspirators reached some
understanding or agreement or plotted, planned and conspired together to deprive plaintiff of a
protected federal right.” Id. (citations omitted). A plaintiff cannot simply rely on “subjective
suspicions and unsupported speculation.” Id. (citations omitted).
In the case at hand, Earle broadly and generally alleges that the individual defendants in
this case conspired to retaliate against him. See Earle Complaint, ECF No. 1. He does not
present any facts to show agreement, communication, plotting, or planning among the individual
defendants to violate a protected right as required by the law. See id. Rather, he relies only on
“subjective suspicions and unsupported speculation,” which is insufficient to establish a
conspiracy. See Regassa, 2015 WL 5178077, at *5. Accordingly, Earle cannot establish that the
defendants, acting in concert, violated his constitutional rights. As discussed below, Earle also

15

58a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 16 of 25 PageID #: 238

fails to adequately plead or establish that any individual defendant violated a protected right as
required under the law.
2. Earle cannot establish that any individual defendant retaliated against him for
filing administrative remedies by placing him in administrative detention in
SHU.
Although prison officials “may not retaliate against inmates for their exercise of a
constitutional right,” the Fourth Circuit has cautioned that “an inmate’s claims of retaliation must
be treated with skepticism because ‘[e]very act of discipline by prison officials is by definition
‘retaliatory’ in the sense that it responds directly to prisoner misconduct.’” Terry v. Anderson,
No. CIV.A. 5:06-CV-00049, 2009 WL 305163, at *7 (S.D.W. Va. Feb. 6, 2009) (citations
omitted). See also, Adams v. Rice, 40 F.3d 72, 75 (4th Cir. 1994), cert. denied, 514 U.S. 1022
(1995) (claims of retaliation by prisoners must “be regarded with skepticism, lest federal courts
embroil themselves in every disciplinary act that occurs in [ ] penal institutions”); Cochran v.
Morris, 73 F.3d 1310, 1317 (4th Cir. 1996) (en banc). Simply put, “[b]are or conclusory
assertions of retaliation are insufficient to establish a retaliation claim. An inmate must allege
facts showing that his exercise of a constitutionally protected right caused the retaliatory action
or that the retaliatory act itself violated a constitutional right.” Cofield v. Hogan, No. CV CCB16-3037, 2018 WL 1535493, at *6 (D. Md. Mar. 27, 2018) (citing Adams, 40 F.3d at 74;
Cochran v. Morris, 73 F.3d 1310, 1318 (4th Cir. 1996)).
To establish a claim of retaliation, an inmate must show that: “(1) his speech was
protected, (2) the alleged retaliatory action adversely affected his protected speech, and (3) a
causal relationship [existed] between the protected speech and the retaliation.”

Roub v.

Campbell, 785 F.3d 876, 885 (4th Cir. 2015) (internal quotation marks omitted). See also,
Booker v. South Carolina Dept. of Corr., 855 F.3d 533, 537 (4th Cir. 2017) (A First Amendment

16

59a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 17 of 25 PageID #: 239

retaliation claim consists of three elements: (1) the plaintiff engaged in constitutionally protected
First Amendment Activity, (2) the defendant took an action that adversely affected that protected
activity, and (3) there was a causal relationship between the plaintiff’s protected activity and the
defendant’s conduct”).
Accordingly, as here, in an action alleging First Amendment violations, “a plaintiff must
establish that the conduct complained of adversely affected his constitutional rights.” ACLU v.
Wicomico County, 999 F.2d 780, 785 (4th Cir. 1993). “Bare assertions of retaliation do not
establish a claim of constitutional dimension.” Adams, 40 F.3d at 75. Further, in order to
establish a cognizable claim of retaliation, “an inmate must point to specific facts supporting his
claim of retaliation.” Brown v. Ratledge, No. 7:16-CV-00303, 2017 WL 4404248, at *8 (W.D.
Va. Sept. 29, 2017), aff'd, 709 Fed. App'x 215 (4th Cir. 2018) (citing White v. White, 886 F.2d
271 (4th Cir. 1989).

Finally, an inmate must “come forward with specific evidence

‘establish[ing] that but for the retaliatory motive, the complained of incident ... would not have
occurred.’” Id. (citing Brizuela v. Immigration Ctrs. Of Am., No. 1:15-cv-1662, 2016 WL
7173783, at *4.
Earle cannot establish a single element of his retaliation claim. Earle alleges that the
protected behavior he engaged in was the filing of administrative remedies.

See Earle

Complaint, ECF No. 1. However, Earle’s claim fails because “federal inmates have no
constitutional right to participate in the BOP’s administrative grievance proceedings.” Murphy v.
Inmate Sys. Mgmt., Inc., No. CIV.A. 1:03-0170, 2008 WL 793631, at *12 (S.D.W. Va. Mar. 20,
2008). See also, Brown v. Ratledge, No. 7:16-CV-00303, 2017 WL 4404248, at *8 (W.D. Va.
Sept. 29, 2017), aff'd, 709 Fed. App’x 215 (4th Cir. 2018) (citing Adams, 40 F.3d at 75) (“In any
event, his claim fails because an inmate has no constitutional right to participate in grievance

17

60a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 18 of 25 PageID #: 240

proceedings.”).3 Thus, arguably, Earle was not engaging in constitutionally protected conduct.
Cf Booker, 855 F.3d at 546 (finding that prison officials were not entitled to qualified immunity
because “a reasonable prison official had fair warning that retaliating against an inmate who filed
a prison grievance was unlawful” and “an inmate’s First Amendment right to be free from
retaliation for filing a grievance was clearly established”).
Even if Earle were engaging in constitutionally protected conduct, he cannot demonstrate
that his administrative detention adversely affected his constitutional rights. As noted above,
Earle has no constitutional right to utilize the BOP’s administrative remedy program. Adams, 40
F.3d at 75. Nevertheless, Earle has had ample access to, and has liberally taken advantage of the
administrative remedy program. In fact, since Earle’s commitment to BOP custody in 1989, he
has filed a total of six-hundred and fifty-two (652) administrative grievances. See Exhibit 1,
Williams Decl., at ¶ 9. Earle has filed eighty-two (82) formal grievances since his placement in
the SHU in December of 2015. Id. There is simply no evidence whatsoever that Earle’s
placement in SHU—for legitimate penological reasons—adversely affected or chilled the
exercise of his constitutional rights. See Perry v. Sindermann, 408 U.S. 593, 597 (1972).
Finally, even though Earle was placed in administrative detention following the
submission of an informal grievance, there was no retaliatory motive linking the two events.
Defendant Shreves had recently been the victim of an inmate assault, necessitating stitches and
time off from work to recover. See Exhibit 2, Shreves Decl., ¶ 6-9. The grievance Earle
submitted appeared to accuse Shreves of being responsible for the lockdown, and of deserving to
be assaulted, which claims defendant Shreves perceived as threatening. Id. Thus, Shreves’

3

If the remedy process is unavailable to an inmate, the legal consequence “is that the door to
federal Court is open to proceedings on the merits of their claims without requiring their
exhaustion of administrative remedies.” Id.
18

61a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 19 of 25 PageID #: 241

referral of the matter to the SIS department was not punitive in nature. Earle simply has not set
forth specific facts and evidence establishing a retaliatory motive. See Brown, 2017 WL
4404248, at *8.
3. Earle cannot establish that his Case Manager retaliated against him by changing
his custody classification.
The BOP has considerable discretion to determine where a federal prisoner will be
incarcerated. See 18 U.S.C. § 3621(b); Cochran v. Morris, 73 F.3d 1310, 1318 (4th Cir. 1996)
(citing Meachum v. Fano, 427 U.S. 215, 224 (1976)).

Indeed, a federal prisoner has no

constitutional right to remain in a specific prison or to have a specific custodial security
classification. Moody v. Daggett, 429 U.S. at 88 n. 9; Grayson v. BOP, No. 5:11-cv-2, 2011 WL
7154384 at *5 (N.D. W. Va. July 22, 2011) (Kaull, J.) (citations omitted), Report and
Recommendation adopted by Grayson v. BOP, 2012 WL 380426 (N.D.W. Va. Feb. 6, 2012)
(Stamp, J.). Rather, inmate classification is administrative, and prison officials can change an
inmate's security classification “for almost any reason or no reason at all.” Brown v. Ratledge,
No. 7:16-CV-00303, 2017 WL 4404248, at *7 (W.D. Va. Sept. 29, 2017), aff’d, 709 F. App’x
215 (4th Cir. 2018) (per curiam) (unpublished) (citations omitted). Moreover, federal statute
empowers the BOP to transfer an inmate, at any time, to any available correctional facility that
“meets minimum standards of health and habitability.” 18 U.S.C. § 3621(b).
When Earle was released from administrative detention on January 6, 2016, he was
assigned a new unit and a new case manager. See Exhibit 4, Gyorko Decl., at ¶ 7-8. Although
Case Manager Gyorko reviewed his custody classification form and updated his classification,
ultimately, this review did not result in a transfer from FCI Hazelton to USP Hazelton. Id. at ¶
7-9. In sum, defendant Gyorko took no action that adversely affected any cognizable protected
constitutional right.

Although Earle was subsequently transferred to USP Hazelton, and
19

62a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 20 of 25 PageID #: 242

ultimately USP Pollock, these transfers were initiated and completed after Earle filed the instant
lawsuit. See Exhibit 1, Williams Decl., ¶ 5. Accordingly, this claim must be dismissed.
B. Earle’s Fifth Amendment Due Process Claim Fails Because Administrative
Detention, Without More, Does Not Implicate a Protected Liberty Interest.
Earle next alleges that his Fifth Amendment due process rights were violated when he
was placed in the SHU pending the SIS investigation into the threatening remedy requests Earle
gave to Shreves.

To establish a due process claim, a plaintiff must first establish that a

government official interfered with a liberty or property interest. Mitchell v. United States, No.
CIV 1:08CV195, 2010 WL 890045, at *13 (N.D.W.Va. Mar. 10, 2010), as amended (Mar. 11,
2010), aff’d, 390 Fed. App’x 260 (4th Cir. 2010) (citing Kentucky Dep’t of Corrections v.
Thompson, 490 U.S. 454, 459 (1989)).
The Due Process clause “standing alone confers no liberty interest in freedom from
[government] action taken within the sentence imposed.” Sandin v. Conner, 515 U.S. 472, 480
(1995) (internal quotations omitted). “When prison officials have legitimate administrative
authority, such as the discretion to move inmates from prison to prison or from cell to cell, the
Due Process Clause imposes few restrictions on the use of that authority, regardless of any
additional motives that are claimed to exist.... [Courts] must allow prison officials the freedom to
exercise their administrative authority without judicial oversight.” Hagan v. Tirado, 896 F. Supp.
990, 995 (C.D.Cal. Aug. 17, 1995) (citing Smith v. Noonan, 992 F.2d 987, 988 (9th Cir. 1993)).
Generally, constitutional protections are not required when the BOP transfers an inmate,
even where the new location is “substantially less agreeable.” Moody v. Daggett, 429 U.S. 78, 88
n. 9 (1976) (citing Meachum, 427 U.S. 215)). Indeed, an inmate does not have a constitutionally
protected liberty interest in avoiding transfer to a more restrictive environment. Buford v. Gilley,
No. 5:14CV160, 2017 WL 3670554, at *3 (N.D.W. Va. Aug. 25, 2017) (Stamp, J.) (citing
20

63a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 21 of 25 PageID #: 243

Wilkinson v. Austin, 545 U.S. 209, 221 (2005)). However, a federal prisoner is entitled to certain
constitutional due process protections before being transferred to a facility or location that
imposes an atypical and significant hardship or exceptionally onerous living conditions
compared to ordinary prison life. Sandin, 515 U.S. at 484.
Defendants submit that being placed in the SHU for administrative detention does not
impose the “atypical and significant hardship or exceptionally onerous living conditions”
foreseen by Sandin. Each federal correctional facility contains a special housing unit, or “SHU,”
which is used to provide an alternate housing assignment and to securely separate an inmate
from the general prison population as necessary to ensure the safety, security, and orderly
operation of correctional facilities, and to protect the public. 28 C.F.R. § 541.21. When an inmate
is placed in the SHU, they are classified as being either in “administrative detention or
“disciplinary segregation” status. 28 C.F.R. § 541.22. The “administrative detention” status is a
non-punitive, administrative status that removes an inmate from the correctional facility’s
general population. Id.
Although the conditions in the SHU are generally “more restrictive and austere than those
[an inmate] enjoyed in the general population, those conditions are within ‘the range of
confinement to be normally expected for one serving’ a federal prison sentence.” Mitchell, 2010
WL 890047 at *14 (quoting Sandin, 515 U.S. at 487); Hagan v. Tirado, 896 F. Supp. 990, 995
(C.D.Cal. Aug. 17, 1995) (citing Smith v. Noonan, 992 F.2d 987, 988 (9th Cir. 1993)) (the
“transfer to less amenable quarters for nonpunitive reasons was ordinarily contemplated by a
prison sentence”).
Staff placed Earle in the Special Housing Unit (“SHU”) on December 7, 2015, pending
an SIS investigation into his allegedly threatening conduct. See Exhibit 2, Shreves Decl., at ¶ 6-

21

64a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 22 of 25 PageID #: 244

11, and Exhibit 3, Washington Decl., at Attachment A. Earle received the administrative
detention order on the same day. See Exhibit 3, Washington Decl., at Attachment A. Generally,
when an inmate is placed in SHU pending an SIS investigation, SIS staff give a verbal
instruction to the on-shift lieutenant for the placement of the inmate in the SHU for investigatory
purposes. See Exhibit 3, Washington Decl., at ¶ 9. The specific details are not necessarily
provided, in order to protect the integrity of the investigation. See id. When the reasons for
placement in administrative detention no longer exist, an inmate will be released from the SHU.
28 C.F.R. § 541.33(a). Earle was released from the SHU on January 6, 2016. See Exhibit 4,
Gyorko Decl., at ¶ 7.
Earle does not allege, or even suggest, that his brief placement in administrative detention
in the SHU at FCI Hazelton was an atypical hardship compared to ordinary prison life. See Earle
Complaint, ECF No. 1; Sandin, 515 U.S. at 484; Palmer, 364 F.3d at 64. He merely makes
general, conclusory allegations that his placement in the SHU was retaliatory and that he lost his
job assignment and property as a result of placement in the SHU. None of these allegations rise
to the level of “atypical” or “significant” hardship.” Sandin, 515 U.S. at 484; Palmer, 364 F.3d at
64. In fact, the only conditions of confinement Earle laments in his Complaint were his alleged
denial of hot meals, visitation, and recreation which occurred during lockdown while he was still
in the general population unit before even being placed in the SHU. See Earle Complaint, ECF
No. 1, at 13. Earle fails to articulate how being placed in administrative detention violated any
recognized, protected liberty interest. His Fifth Amendment due process claim must be denied.

22

65a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 23 of 25 PageID #: 245

C. Earle’s Eighth Amendment Cruel and Unusual Punishment Claim Fails Because
He Has Not Shown that His Placement In Administrative Detention Caused A
Serious Deprivation Of A Basic Human Need.
The Eighth Amendment to the United States Constitution prohibits cruel and unusual
punishment. U.S. Const. Amend. VIII. This requirement protects federal prisoners from
inhumane treatment and conditions. Williams v. Benjamin, 77 F.3d 756, 761 (4th Cir. 1996).
Although the United States Constitution does not require or mandate “comfortable prisons,” it
also does not permit or tolerate inhumane incarceration. Farmer v. Brennan, 511 U.S. 825, 832
(1994); Rhodes v. Chapman, 452 U.S. 337, 349, (1981). Accordingly, prison officials must
provide humane conditions of confinement. Farmer, 511 U.S. at 832-33 (citations omitted).
Specifically, prison administrators must ensure that inmates have adequate food, clothing,
shelter, and medical care. Id. (citations omitted). Indeed, prison officials must take reasonable
steps to guarantee the wellbeing and care of inmates. Id. (citations omitted). See also 18 U.S.C. §
4042(a).
A prison official violates his Eighth Amendment obligation to protect prisoners “only if
he knows that inmates face a substantial risk of serious harm and disregards that risk by failing to
take reasonable measures to abate it.” Farmer, 511 U.S. at 847 (emphasis added). In order to
establish a prima facie case that “prison conditions violate the Eighth Amendment, a plaintiff
must show both ‘(1) a serious deprivation of a basic human need; and (2) deliberate indifference
to prison conditions on the part of prison officials.’” Strickler v. Waters, 989 F.2d 1375, 1379
(4th Cir. 1993) (quoting Williams v. Griffin, 952 F.2d 820, 824 (4th Cir. 1991)). The Supreme
Court has made clear that “the first showing requires the court to determine whether the
deprivation of the basic human need was objectively ‘sufficiently serious,’ and the second

23

66a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 24 of 25 PageID #: 246

requires it to determine whether subjectively ‘the officials act[ed] with a sufficiently culpable
state of mind.’” Id. (quoting Wilson v. Seiter, 501 U.S. 294 (1991)) (emphasis in original).
Being segregated from the general prison population, even where such isolation is
punitive or disciplinary, does not independently constitute cruel and unusual punishment unless
the conditions in isolation are cruel and unusual. Hutto v. Finney, 437 U.S. 678, 686 (1978)
(citations omitted). Even indefinite segregation, without more, does not necessarily constitute
cruel and unusual punishment. Id. If the conditions in segregation are not “materially different
from those affecting other prisoners, a transfer for the duration of a prisoner's sentence might be
completely unobjectionable and well within the authority of the prison administrator.” Id.
(citations omitted).
Earle does not discernibly allege that the conditions he encountered in the FCI Hazelton
SHU were any different from ordinary prison conditions, let alone that such conditions were
inhumane.

See Earle Complaint, ECF NO. 1.

Further, Earle does not articulate that any

individual defendant in this case actually knew about and purposefully ignored some inhumane
condition in the SHU. Id. Therefore, pursuant to the legal principles outline above, to the extent
that Earle alleges that being placed in administrative segregation in the SHU constitutes cruel
and unusual punishment. His Eighth Amendment claim must be dismissed.
IV. The Defendants Are Entitled to Qualified Immunity Because Earle Cannot Establish
Any Cognizable Fifth Or Eighth Amendment Constitutional Violations.
When an inmate accuses a federal executive officer or employee of violating the inmate’s
constitutional rights, the officer may invoke the defense of qualified immunity. Butz v.
Economou, 438 U.S. 478 (1978). The doctrine of qualified immunity protects government
officials “from liability for civil damages insofar as their conduct does not violate clearly
established statutory or constitutional rights of which a reasonable person would have known.”
24

67a

Case 2:17-cv-00004-JPB-RWT Document 59-1 Filed 08/30/18 Page 25 of 25 PageID #: 247

Pearson v. Callahan, 555 U.S. 223, 231, (2009) (quoting Harlow v. Fitzgerald, 457 U.S. 800,
818, (1982). Qualified immunity provides “immunity from suit rather than a mere defense to
liability.” Mitchell v. Forsyth, 472 U.S. 511, 526 (1985).
Traditionally, courts employ a sequential two-step analysis to determine whether a
defendant is entitled to qualified immunity. Pearson, 555 U.S. at 232(citing Saucier v. Katz, 533
U.S. 194, 201-02 (2001)). First, a court asks whether the facts, as alleged by the plaintiff,
establish that the defendant violated the inmate’s constitutional rights. Id. Second, a court asks
whether the constitutional right was clearly established at the time of the defendant’s alleged
misconduct. Id. In Pearson, the Supreme Court noted that these questions need not be considered
in a rigid, sequential order. Id. at 236. Rather, the Pearson court noted that qualified immunity
protects an official if his conduct does not “violate clearly established statutory or constitutional
rights of which a reasonable person would have known.” Id. at 231 (citations omitted).
As set forth supra, Earle fails to establish that his being placed in administrative
detention in the SHU pending an SIS investigation violates either the Fifth or the Eighth
Amendment claim. Therefore, the individual defendants are shielded from Bivens liability.
Pearson, 555 U.S. at 231.
V. Earle’s Request For Injunctive Relief Is Not Cognizable In A Bivens Lawsuit.

A Bivens action seeks monetary damages from the personal financial assets of an
individual government actor. See Corr. Servs. Corp. v. Malesko, 534 U.S. 61 (2001). Relief in a
Bivens suit “is damages or nothing.” Davis v. Passman, 442 U.S. 228, 245 (1979) (citations
omitted). Earle’s Complaint seeks “injuntive [sic] relief.” [ECF No. 1 at PageID #15]. Such
relief is prohibited in a Bivens lawsuit. Id.
Wherefore, the defendants respectfully move the Court to dismiss Plaintiff’s Complaint.
25

68a

Case 2:17-cv-00004-JPB-RWT Document 59-3 Filed 08/30/18 Page 1 of 5 PageID #: 332

Exhibit 2
69a

Case 2:17-cv-00004-JPB-RWT Document 59-3 Filed 08/30/18 Page 2 of 5 PageID #: 333

70a

Case 2:17-cv-00004-JPB-RWT Document 59-3 Filed 08/30/18 Page 3 of 5 PageID #: 334

71a

Case 2:17-cv-00004-JPB-RWT Document 59-3 Filed 08/30/18 Page 4 of 5 PageID #: 335

72a

Case 2:17-cv-00004-JPB-RWT Document 59-3 Filed 08/30/18 Page 5 of 5 PageID #: 336

73a

Case 2:17-cv-00004-JPB-RWT Document 59-4 Filed 08/30/18 Page 1 of 8 PageID #: 337

Exhibit 3
74a

Case 2:17-cv-00004-JPB-RWT Document 59-4 Filed 08/30/18 Page 2 of 8 PageID #: 338

75a

Case 2:17-cv-00004-JPB-RWT Document 59-4 Filed 08/30/18 Page 3 of 8 PageID #: 339

76a

Case 2:17-cv-00004-JPB-RWT Document 59-4 Filed 08/30/18 Page 4 of 8 PageID #: 340

77a

Case 2:17-cv-00004-JPB-RWT Document 59-4 Filed 08/30/18 Page 5 of 8 PageID #: 341

78a

Case 2:17-cv-00004-JPB-RWT Document 59-4 Filed 08/30/18 Page 6 of 8 PageID #: 342

79a

Case 2:17-cv-00004-JPB-RWT Document 59-5 Filed 08/30/18 Page 1 of 11 PageID #: 345

Exhibit 4
80a

Case 2:17-cv-00004-JPB-RWT Document 59-5 Filed 08/30/18 Page 2 of 11 PageID #: 346

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
VERNON NORMAN EARLE,
Plaintiff,
v.

SHREVES, C/O, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)

Civil Action No. 2:17-cv-4

DECLARATION OF ANGELA GYORKO
In accordance with the provisions of Section 1746 of Title 28, United States Code, I, the
undersigned, Angela Gyorko, do hereby make the following declaration pertinent to the abovestyled cause of action:
1. I am currently employed by the Federal Bureau of Prisons (“BOP”) as a Case Manager at
the Federal Correctional Institution in Bruceton Mills, West Virginia (“FCI Hazelton”). I
have held this position since June 2013. I began my employment with the BOP on March
5, 2006.
2. As a Case Manager, I am assigned to work in a particular unit in an institution and
assigned a specific caseload of inmates. My responsibilities include individual and group
counseling for inmates, dealing with community resources to secure information and
develop release plans, preparing progress reports for such consideration as parole,
transfer, restoration of forfeited good time, and making appropriate recommendations, as
well as implementing and monitoring inmates’ treatment plan and initiating necessary
changes.
81a

Case 2:17-cv-00004-JPB-RWT Document 59-5 Filed 08/30/18 Page 3 of 11 PageID #: 347

3. I have access to official records compiled and maintained by the BOP, many of which are
located in the BOP SENTRY electronic database and inmate files. These documents
include records of inmates currently and formerly incarcerated at the Federal Correctional
Complex in Bruceton Mills, West Virginia (“FCC Hazelton”). Specifically, these
documents include records related to Plaintiff Vernon Norman Earle, Federal Register
Number 09814-004.
4. I am aware that Plaintiff Earle, has filed a lawsuit against me and several other BOP
employees in which he alleges violations of his First, Fifth, and Eighth Amendment
rights while he was incarcerated at FCI Hazelton. Specifically, I understand that Earle
alleges that after his release from SHU, I conspired and retaliated against him by
attempting to increase his custody points in order to send him back to the Penitentiary.
5. I generally recall inmate Earle, and that he was placed in SHU in December of 2015.
However, I have absolutely no knowledge or belief that BOP staff conspired to retaliate
against Earle by placing him in SHU for utilizing the administrative remedy program.
6. I had no part in determining whether, when, or why Earle was placed in SHU. I was not
his Case Manager at the time he was placed in SHU.
7. Earle was released from the SHU on January 6, 2016. Attached hereto as Attachment A is
a true and correct copy of Inmate History (QTR) for inmate Vernon Norman Earle, Reg.
No. 09814-004.
8. At that time, he was added to my unit and caseload of inmates. I reviewed his custody
classification form and noticed that he had a non-immigration detainer on file.
Accordingly, I updated his custody classification points. I deny that I did so in violation

82a

Case 2:17-cv-00004-JPB-RWT Document 59-5 Filed 08/30/18 Page 4 of 11 PageID #: 348

83a

